LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 26, 2021

IN RE HILLARY RODHAM CLINTON AND CHERYL MILLS

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner on January 26, 2021 I caused service to be made
pursuant to Rule 29 and the Temporary Order of April 15, 2020 on the following counsel for the parties:
COUNSEL FOR SEC.
CLINTON:
David E. Kendall
Suraj Kumar
Katherine M. Turner
Stephen Lewis Wohlgemuth
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
202-434-5000
dkendall@wc.com
skumar@wc.com
kturner@wc.com
swohlgemuth@wc.com

COUNSEL FOR MS. MILLS:
Beth A. Wilkinson
Brian L. Stekloff
Wilkinson Stekloff LLP
2001 M Street, NW
10th Floor
Washington, DC 20036
202-847-4010
202-847-4005
bwilkinson@wilkinsonstekloff.com
Bstekloff@wilkinsonstekloff.com
COUNSEL FOR U.S. DEP'T
OF STATE:
Mark R. Freeman
Appellate Staff Civil Division
U.S. Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530
(202) 514-5714
Mark.Freeman2@usdoj.gov

Elizabeth J. Shaprio
Stephen M. Pezzi
Trial Attorney
United States Department of
Justice Civil Division
Federal Programs Branch
1100 L Street NW
Washington, DC 20005
Phone: (202) 305-8576
Email: stephen.pezzi@usdoj.gov
Elizabeth Prelogar
Acting Solicitor General
United States Department of
Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing one copy of the Petition for Writ of Certiorari in an official “first
class mail” receptacle of the United States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 26th day of January 2021.

